<html>
<title> - CONSULAR AFFAIRS AND THE COVID-19 CRISIS: ASSESSING THE STATE DEPARTMENTS RESPONSE TO THE PANDEMIC</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                    CONSULAR AFFAIRS AND THE COVID-
                      19 CRISIS: ASSESSING THE STATE 
                      DEPARTMENT'S RESPONSE TO THE 
                      PANDEMIC

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             July 21, 2020

                               __________

                           Serial No. 116-130

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 
                       or http://www.govinfo.gov                       
                       
                              __________ 
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
42-320 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------
                      
                       
                       
                      COMMITTEE ON FOREIGN AFFAIRS
		      
		 ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey		     CHRISTOPHER H. SMITH, New Jersey     
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida	     JOE WILSON, South Carolina
KAREN BASS, California		     SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts	     TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island	     ADAM KINZINGER, Illinois
AMI BERA, California		     LEE ZELDIN, New York
JOAQUIN CASTRO, Texas		     JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada		     ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California		     FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania	     BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLPS, Minnesota	             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota		     KEN BUCK, Colorado
COLIN ALLRED, Texas		     RON WRIGHT, Texas
ANDY LEVIN, Michigan		     GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia	     TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey	     STEVE WATKINS, Kansas
DAVID TRONE, Maryland		     MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas                              
                             

                      Amy Porter, Chief of Staff      
                     Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

              Subcommittee on Oversight and Investigations

                     AMI BERA, California, Chairman

ILHAN OMAR, Minnesota                LEE ZELDIN, New York, Ranking 
ADRIANO ESPAILLAT, New York              Member
TED LIEU, California		     SCOTT PERRY, Pennsylvania
TOM MALINOWSKI, New Jersey	     KEN BUCK, Colorado
DAVID CICILLINE, Rhode Island	     GUY RESCHENTHALER, Pennsylvania
                                     
                                     
                    Sid Ravishankar, Staff Director
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Brownlee, Ian, Principal Deputy Assistant Secretary, Bureau of 
  Consular Affairs, U.S. Department of State.....................     7
King, Karin, Deputy Assistant Secretary, Overseas Citizen 
  Services, U.S. Department of State.............................    15

                                APPENDIX

Notice...........................................................    36
Minutes..........................................................    37
Attendance.......................................................    38

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD

Responses to questions submitted for the record from 
  Representative.................................................    39

                  INFORMATION SUBMITTED FOR THE RECORD

Information submitted for the record.............................    88

 
     CONSULAR AFFAIRS AND THE COVID-19 CRISIS: ASSESSING THE STATE 
                  DEPARTMENTS RESPONSE TO THE PANDEMIC

                         Tuesday, July 21, 2020

                          House of Representatives,
      Subcommittee on Oversight and Investigations,
                      Committee on Foreign Affairs,
                                                     Washington, DC

    The subcommittee met, pursuant to notice, at 10:05a.m., in 
room 2172, Rayburn House Office Building, Hon. Joaquin Castro 
(chairman of the subcommittee) presiding.
    Mr. Castro. The Subcommittee on Oversight and 
Investigations will come to order. Today's subject is Consular 
Affairs in the COVID-19 Crisis: Assessing the State 
Department's Response to the Pandemic.
    Without objection, the chair is authorized to declare a 
recess of the committee at any point, and all members will have 
5 days to submit statements, extraneous material, and questions 
for the record, subject to the length limitation in the rules.
    To insert something into the record, please have your staff 
email the previously mentioned address, or contact full 
committee staff.
    As a reminder to members, staff, and all others physically 
present in this room, per recent guidance from the House Office 
of the Attending Physician, masks must be worn at all times 
during today's proceedings, except when a member is speaking in 
a microphone.
    Please also sanitize your seating area.
    The chair views these measures as a safety issue, and, 
therefore, an important matter of order and decorum for this 
proceeding. Please keep your video function on at all times, 
even when you are not recognized by the chair.
    Members are responsible for muting and unmuting themselves, 
and please remember to mute yourself after you finish speaking.
    Consistent with House Resolution 965 and the accompanying 
regulations, staff will only mute members and witnesses as 
appropriate when they are not under recognition to eliminate 
background noise.
    Okay. The COVID-19 pandemic has upended our lives in ways 
it seemed unimaginable just a few months ago. We can all 
remember late March when the entire world seemed to be changing 
by the minute. Now, Americans across the country are faced with 
both the health and economic crisis that is far from over, and 
in many places, within our country, only getting worse.
    ``Unprecedented'' is a word that probably gets overused, 
but it certainly applies to the situation at the U.S. 
Department of State. The U.S. Department of State faced many 
challenges during the pandemic. The U.S. Government certainly 
has a long history of repatriating citizens, but never before 
had so many Americans in so many different countries and 
regions needed to be repatriated at the same time.
    The challenge was not simply arranging enough flights to 
get Americans home; many Americans were located in rural areas, 
and internal lockdowns in those countries often made it very 
difficult to get people to the cities where flights were 
leaving from. There were numerous instances where people needed 
to take boats in order to reach buses that took them to cities 
to get on flights.
    Often, the State Department had to negotiate each of these 
travel plans individually with host governments. The effort was 
not seamless, especially in its early days. I heard from many 
people who were stuck abroad and felt as though they weren't 
getting the support from the State Department that they needed.
    There were major technology issues with the STEP Program. 
There were also larger issues, such as the announcement banning 
traveling to and from Europe, which caused a panic, resulting 
in overcrowded conditions in airports during a pandemic.
    Overall, though, the State Department's repatriation effort 
has been a success. The State Department brought over 100,000 
Americans home safely from 136 different countries and 
territories. This achievement is a testament to the hard work 
and dedication of our diplomats and civil servants who work 
tirelessly, and often at great personal risk to themselves and 
their families.
    The State Department also did a good job of keeping 
Congress informed of the repatriation efforts, which allowed us 
to communicate with our constituents back home, and many of 
Members of Congress, as you all know, to the witnesses, were 
receiving requests from constituents often for their family 
members who were somewhere abroad.
    It is often difficult to convince folks of the value of the 
State Department. I think their repatriation campaign is a 
fantastic example of the tangible impact on how diplomats 
improve the lives of Americans. When faced with an 
unprecedented crisis, it was the U.S. State Department that got 
Americans home safely.
    Of course, we cannot simply rest on our laurels. One issue 
that will plague Consular Affairs for years to come is a lack 
of funding. Normally, the Bureau of Consular Affairs is funded 
entirely by fees collected for services like issuing passports 
and visas. Even the best of times, money is tight because the 
Bureau can only charge what it costs to perform these consular 
services, and hundreds of millions of dollars must be 
transferred to the Treasury.
    And now, travel has been nearly nonexistent since late 
March, and is likely to remain significantly reduced in the 
coming years. Today's hearing is an opportunity to discuss the 
Bureau's fiscal situation as well.
    There are also other challenges that we must address. One 
is that many Americans now owe thousands of dollars for the 
repatriation flights that the State Department arranged to get 
them home. With the economy in tatters because of the pandemic, 
many of these folks are unable to pay for these flights.
    Even as countries begin opening up tourism, travel 
restrictions against Americans remain in place in almost every 
country, including among our closest allies in Europe. I hope 
we can discuss what the State Department is doing to remove 
these travel restrictions. This is work that is urgent, as many 
Americans still remain in places other than their home, the 
United States, and they would like to get here. And folks would 
like to be able to travel and see relatives in other nations as 
well, that right now are not allowing Americans to travel.
    Finally, I think there is a danger that the Trump 
administration will attempt to use this pandemic as an excuse 
to advance its anti-immigrant agenda. We saw this with the 
attempt to deport many foreign students, a move that provoked 
so much outrage that the administration reversed itself. And 
this is unlikely to be the last attempt to use the pandemic for 
political purposes.
    While safety must remain paramount, not only at home, but 
also for our diplomats and public servants in embassies around 
the world, we cannot forego the openness that has made this 
country remarkable. This is true not only for moral reasons, 
but also because immigration and tourism help propel our 
economy, which is obviously in dire need.
    So there is a lot of ground to cover and much to discuss, 
but, before introducing our witnesses today from the State 
Department, I would like to turn it over to our ranking member, 
Lee Zeldin of New York, for his opening comment.
    Mr. Zeldin. Thank you, Chairman Castro, and thank you to 
our witnesses for being here today.
    During the early stages of the coronavirus pandemic, the 
State Department was faced with the ultimate challenge to 
protect and bring home American citizens abroad. As of June 
2020, the State Department coordinated the repatriation of over 
100,000 Americans on 1,140 flights from 136 countries and 
territories. They worked 24/7 to repatriate American citizens 
from around the globe, using every available resource, from 
chartering flights, to partnering with U.S. commercial 
airlines, to printing emergency passports to make sure every 
American citizen who wanted to come home could.
    With the help of the State Department, our office was able 
to bring many constituents home. Some of the stories are 
incredible. I will briefly share with you two.
    A former Marine and his wife were taking a vacation in Peru 
when everything shut down. Under martial law, Peru's hotels 
shut down, leaving them stranded with no way out. The State 
Department worked with them, calling hotels to find space for 
them to sleep, and making sure they were near the airport and 
ready to go the moment the plane arrived.
    Another one of my constituents was in the Canary Islands 
when the coronavirus pandemic hit. His mother was being 
hospitalized in an ICU with pancreatitis in the Canary Islands 
in Spain. Working with the State Department, we were able to 
secure a medical jet to transport his mother to the United 
States.
    I would like to take the opportunity to thank those at the 
State Department for stepping up to the plate during these 
unprecedented times. We would like to hear from our witnesses 
today on the lessons they learned in the earliest days of this 
global repatriation effort.
    Specifically, I would like to hear about the challenges 
faced in countries like Peru, where there were a significant 
number of American travelers who struggled getting home. We 
want to ensure future repatriations can be carried out more 
smoothly. Over 10,000 Americans were repatriated from Peru, 
including constituents from my district, but the process was 
not easy.
    The Peruvian government was blocking the return of U.S. 
citizens until it received assurances that its own citizens 
could leave the U.S., essentially holding American citizens 
hostage. That is unacceptable and must be met with a forceful 
diplomatic response that the U.S. will not tolerate this kind 
of threat.
    As part of our oversight mandate, it is critical that this 
committee evaluate the strategies that were effective, and look 
into possible ways to enhance States' abilities to repatriate 
American citizens in crisis.
    Additionally, the State Department has expressed concerns 
to this committee that it continues to see projected losses in 
fee revenues. Congress must ensure that agencies that rely on 
these revenues, from visa and passport fees, have the personnel 
to handle the backlog.
    I look forward to hearing from our witnesses on how 
Congress can help. I thank, again, the chair for scheduling 
today's hearing, and I yield back.
    Mr. Castro. Thank you, Ranking Member Zeldin.
    I will now introduce our distinguished witnesses, and thank 
you all again for coming to testify.
    Our witnesses for today's hearing are Ian Brownlee, the 
Principal Deputy Assistant Secretary of State for Consular 
Affairs, and Karin King, the Deputy Assistant Secretary of 
State for Overseas Citizens Services. And I will now recognize 
each witness for 5 minutes, and, without objection, your 
prepared written statements will be made a part of the record.
    And I will first call on Mr. Brownlee for his testimony.

     STATEMENT OF IAN BROWNLEE, PRINCIPAL DEPUTY ASSISTANT 
SECRETARY, BUREAU OF CONSULAR AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Brownlee. Chairman Castro, Ranking Member Zeldin, 
members of the subcommittee, thank you for this opportunity to 
testify today.
    I would like to thank all of your offices for your help and 
the support you gave us as we worked together to repatriate 
those thousands of your constituents, our fellow Americans. 
This has truly been an all-of-government effort. We have 
coordinated with the CDC, DHS components, DOT, DoD, and the 
Congress, to bring home over 110,000 U.S. citizens and lawful 
permanent residents worldwide.
    Throughout this outbreak, we provided, first daily, and 
then twice weekly, briefings to both the House and the Senate 
to keep you updated on our progress in helping your 
constituents overseas.
    Thank you also for the additional appropriations and 
legislative authorities you provided in recent supplementals 
supporting our ability to continue our work. Without that 
assistance, we would not be able to continue helping those U.S. 
citizens and lawful permanent residents overseas.
    To help manage the changing workload and to support our 
staff overseas, the Department of State established a 
repatriation task force, including subunits focused on 
congressional inquiries and cruise ships.
    At our posts overseas, officers who normally adjudicated 
visas shifted to American Citizens Services work, allowing the 
Department to focus resources on our number-one priority 
overseas: providing assistance to U.S. citizens.
    Mr. Chairman, thank you for your recognition of the Foreign 
Services civil servants, but I would like to add to that my 
thanks to our locally employed staff and eligible family 
members who played a key role in exercising everything we did 
during the repatriation of these U.S. citizens.
    On March 20th, the Department temporarily suspended routine 
visa processing and we began to significantly reduce passport 
operations. These dual actions were taken for the health and 
safety of both our employees and our customers. We project a 
more than 50 percent drop in visa fee revenue and the similarly 
dramatic decline in passport fee revenue due to COVID-19, with 
total projected losses of over $1.4 billion this fiscal year. 
We also foresee a continued strain on fee revenue throughout 
the next fiscal year.
    Thanks to the temporary expenditure authority provided in 
the CARES Act, we have used the carry-forward balances from 
certain fee revenue to maintain consular operations this fiscal 
year. However, we are on track to substantially deplete 
balances in those accounts by the end of this fiscal year.
    Most of the Department's consular funding comes from fees 
collected from visa applicants, and our current fee authorities 
allow us to use a portion of these fees to cover the costs of 
providing essential services to U.S. citizens abroad.
    CA's fee-for-service model relies on a stable flow of visa 
and passport applicants to fund those activities and 
extraordinary activities such as large-scale repatriations. The 
pandemic has severely disrupted consular fee revenue. Our 
normal income is $3.5 billion annually. Relative to Fiscal Year 
2019, we expect a drop of more than $1.4 billion this year, and 
a comparable loss in the next fiscal year.
    To continue offering emergency and routine services to U.S. 
citizens overseas, including overseas voting assistance this 
election year, we need additional authority, such as that 
requested in the Fiscal Year 2021 budget, to better achieve 
full cost recovery and to maintain continuity of operations for 
these essential services until the anticipated recovery of 
demand currently projected for Fiscal Year 2023.
    Specifically regarding U.S. citizens services, the 
administration's Fiscal Year 2021 budget proposes allocating 
the costs to providing U.S. citizens services to security 
surcharges applied to certain visas.
    Thank you, Mr. Chairman, Mr. Zeldin. I look forward to 
answering your questions and those of the other members of the 
subcommittee.
    My colleague, Deputy Assistant Secretary Karin King, will 
speak more about our assistance to U.S. citizens.
    [The prepared statement of Mr. Brownlee follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    Mr. Castro. Thank you, Mr. Brownlee.
    Ms. King? Oh, I think you need your microphone. No worries.

 STATEMENT OF KARIN KING, DEPUTY ASSISTANT SECRETARY, OVERSEAS 
           CITIZEN SERVICES, U.S. DEPARTMENT OF STATE

    Ms. King. Chairman Castro, Ranking Member Zeldin, thank you 
for the opportunity to testify today. I am proud to be here 
representing not only the Office of Overseas Citizens Services, 
OCS, here in Washington, but the consular officers and locally 
engaged staff worldwide who assist U.S. citizens every day 
under challenging circumstances. I assure you, you will not 
find a more dedicated team of public servants anywhere.
    Since the first news of the novel coronavirus outbreak in 
China, OCS has been at the center of an around-the-clock effort 
to inform U.S. travelers of the risks related to COVID, and to 
bring home those caught overseas.
    The global consular teams' work during the COVID outbreak 
is giving Congress and the American public an opportunity to 
see the broad range of actions OCS and consular officers in the 
field take every day to support U.S. citizens overseas.
    Although the COVID pandemic is unprecedented, we are not 
new to the business of repatriating citizens in need. We are 
not new to the business of communicating accurate, actionable, 
life-saving advice to citizens. Protecting health and safety of 
U.S. citizens abroad and helping them get home when they are in 
need has always been my office's core mission.
    PDAS Brownlee described the extraordinary efforts the 
Department's task force undertook to expand our capacity to 
support our citizens overseas, and OCS is deeply grateful for 
the way in which the entire Department mobilized during this 
crisis. OCS staff comprised the core task force staffing, and I 
pledge to you and the citizens we serve, that OCS continues to 
monitor the provision of services to Americans worldwide, and 
we will continue to support repatriation efforts when and where 
needed.
    OCS officers are in constant touch with their colleagues at 
embassies and consulates overseas, and they provide policy and 
logistical crisis management guidance around the clock. More 
broadly, OCS maintains close contact with other State 
Department offices, as well as the interagency partners that 
comprise the COVID task force. We are fully prepared to flex as 
needed to support any renewed demand for repatriations, and we 
will call on the larger Bureau of Consular Affairs to bolster 
us as needed.
    OCS officers maintain the Consular Information Program that 
is the foundation of our efforts to protect U.S. citizens. Our 
products include travel advisories, country information pages, 
and timely alerts issued directly by our overseas posts. These 
products provide U.S. citizens with fact-based information 
designed to enable Americans overseas to make well-informed 
decisions regarding their safety.
    Our travel advisories, in particular, have also become 
invaluable to professionals in the travel, insurance and 
private security sectors. The travel advisory system assigns 
each country an advise level ranging from 1, exercise normal 
precautions, to 4, do not travel, derived from metrics-based 
rubrics that assess crime, terrorism, kidnapping, hostage-
taking, civil unrest, natural disaster, health, and other 
risks.
    The COVID pandemic poses unprecedented health and 
logistical risks for travelers, and we are working closely with 
experts at the U.S. Centers for Disease Control and Prevention, 
CDC, to ensure that our travel advisories take into account the 
latest data in each country. In tandem with CDC, OCS issued an 
unprecedented level 4, do not travel, global travel advisory in 
March. With conditions improving in some countries, we are 
following CDC's lead and returning to previous country-specific 
travel advice levels.
    As much as I hope we are never again confronted with the 
crisis requiring us to repatriate more than 100,000 U.S. 
citizens, we are ready to do so if needed. In fact, we are 
already working on how we would do it better.
    Rethinking and innovating in the face of challenges is 
critically important, and we are currently engaged in a 
lessons-learned effort to identify action items that will 
enhance our responsiveness and effectiveness.
    I second PDAS Brownlee's request to work with you to ensure 
funding for OCS is not exclusively reliant on revenue sources 
outside of the Department's control. The services we provide to 
U.S. citizens are just too important.
    Our office has the privilege of safeguarding the safety and 
security of U.S. citizens overseas. I am proud to lead a team 
of foreign affairs professionals that serve our country and 
fellow citizens incredibly well.
    I reiterate my thanks to the chairman and ranking member 
for this opportunity to address you. I look forward to 
answering your questions.
    [The prepared statement of Ms. King follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    Mr. Castro. Thank you, Ms. King. We appreciate your 
testimony very much.
    And I will now recognize members for 5 minutes each, and 
pursuant to House rules, all time yielded is for the purposes 
of questioning our witnesses.
    Because of the hybrid format of this meeting, I will 
recognize members by committee seniority, alternating between 
Democrats and Republicans. If you miss your turn, members, 
please let our staff know, and we will circle back to you. If 
you seek recognition, you must unmute your microphone and 
address the chair verbally.
    And I will start now by recognizing myself.
    The Bureau of Consular Affairs is typically funded through 
the fees it collects for performing consular services. Now 
obviously, the pandemic has drastically reduced demand for 
consular services. We understand, as you mentioned, that the 
Department expects revenues to decline by $1.4, $1.5 billion in 
Fiscal Year 2020 and Fiscal Year 2021, with a continued decline 
expected in Fiscal Year 2022. This is an astonishing amount of 
money, given that in recent years, revenue has been about $4 
billion.
    And so, as I mentioned, you described some of the fiscal 
situation, particularly Mr. Brownlee, but let me ask you: What 
actions is the Bureau taking to account for these dropping 
revenues, and what would be the impact of these falling 
revenues? In other words, what is the longer-term impact of 
this?
    Mr. Brownlee. Thank you. Thank you very much for your 
question, sir.
    We are approaching this, as you correctly note, astonishing 
decline in revenue down essentially two paths: One is we are 
seeking to effect now, immediately, savings in our 
expenditures, and we have identified some--pardon me. Let me 
make sure I get the number correct here. We have identified 
some $359 million in savings from the Fiscal Year 2020 budget.
    Mr. Castro. Do you have a sense of where those savings are 
coming from, a rough sense?
    Mr. Brownlee. A very rough sense, sir, we have contracts, 
for example--we have contracts overseas where we have what we 
call greeters, assistants who move people through visa waiting 
rooms. Obviously, at times of greatly reduced visa demand, we 
do not need people moving through waiting rooms.
    There are similar----
    Mr. Castro. Okay.
    Mr. Brownlee [continuing]. Sort of services. We are looking 
at a number of other projects as well, both domestically and 
overseas, where we can hold off on expending money, or just not 
spend at all, but we are looking at a fairly significant 
reduction in this year's spending.
    We are also considering--we have used the money--thank you 
very much to the Congress for the authorities given to us in 
the CARES Act to go into prior unexpended balances that have 
been carried forward. So, without getting into great detail, 
our fees bring in funds from a number of different sources--
visa fees, passport fees, some surcharges.
    We had the broadest authority to spend what we call the MRV 
fee, the machine-readable visa fee. That was the one that was 
carrying us. With the systemic decline in visa demand that was 
taking place even before the COVID crisis hit, we were facing a 
problem, and we have been requesting authority to spend, for 
example, the passport security surcharge to expend those funds 
to support our--DAS King's operations overseas.
    Mr. Castro. Well, I have a--can I interject----
    Mr. Brownlee. Please.
    Mr. Castro [continuing]. Just 1 second? And I have one more 
questions after this. I have got about 2 minutes left. But, on 
this issue, let me ask you this: Are Americans going to have a 
different experience utilizing your services because of this? 
What is that going to look like? Is it going to take longer? 
What do you anticipate?
    Mr. Brownlee. Thank you, sir, for the question.
    With regard to our services overseas, it is our key 
priority. We are not going to put Karin's operations out of 
business because of this. We are going to make sure that those 
operations continue unabated, consistent with what we can do 
safely, bring in the number of people into a waiting room, that 
sort of thing. So they may see some change in that respect, but 
health and considerations may require us to restrict the number 
of people in the waiting room.
    With regard to domestic services, passport services, we 
have reinitiated the provision of--the adjudication of 
passports. Beginning--I think it was on June 11th--in early 
June, we began--we brought in--we declared our entire staff to 
be mission critical. That brought approximately 50 percent of 
the staff back into the office to do adjudications, and we have 
made significant, very significant progress in reducing the 
backlog that had developed in March, April, May, and early 
June.
    So.
    Mr. Castro. Yes. Well, thank you for that. And I have got 
about 45 seconds left, 40 seconds left, but let me ask you, 
some countries have started to not allow Americans to travel to 
their countries. Can you all tell me how many nations are 
currently not allowing Americans to travel to their countries?
    Mr. Brownlee. No, sir. I cannot tell you that off the top 
of my head, but I will get you that answer, sir.
    Mr. Castro. Sure. Okay. Thank you.
    I will turn it over to Ranking Member Zeldin.
    Mr. Zeldin. Thank you, Mr. Chair.
    Congress informed the committee yesterday that, of the $588 
million of emergency money provided to the Department in the 
CARES Act, $462 million has been notified for use, but only 
$104 million has been obligated. What are the plans for the 
remaining $126 million that has not been notified?
    Mr. Brownlee. Thank you, Mr. Zeldin, for the question. I am 
going to have to take that, sir--I am aware of what we are 
doing in the Bureau of Consular Affairs. We are grateful for 
the support given to the Bureau of Consular Affairs in the 
CARES Act, but on the broader departmental question, we are 
going to have to get back to you, sir. Thank you.
    Mr. Zeldin. Go ahead, Ms. King.
    Ms. King. Yes. I would just say that in terms of moneys to 
be used for U.S. citizen repatriations, we are using all the 
money we need for repatriation purposes.
    Mr. Zeldin. Would either of you have any comments as to why 
only $104 million has been obligated so far?
    Ms. King. I would say, again, where we have needed to use 
the funds specifically for repatriations, and for evacuations, 
we have used that money, so to the degree we have not used more 
of it, it is because we have not yet had the need to do so.
    Mr. Zeldin. Great. Thank you.
    State has said it is using their repatriation loans, 
programs--program account to help U.S. citizens pay for costs 
associated with commercial rescue flights operated by private 
air carriers. How much funding has the State Department 
obligated from their repatriation loans program account for 
this purpose?
    Ms. King. I am going to have to get back to you with the 
specific number. I know that we have met our authorization, and 
so, at this point, we are using K funds for repatriation 
purposes, but I will have to get back to you with where we are 
with the specific number today.
    Mr. Zeldin. With respect to individuals who lack the means 
to repay such loans, what actions, if any, does the State 
Department take?
    Ms. King. The State Department works with the Department of 
Treasury, so when somebody is repatriated, there is a hold put 
on their passport until they have repaid the loan, and we work 
very closely with Treasury to get the loan repayment.
    Mr. Zeldin. Any insights though to share if the individual 
lacks the ability to repay the loan?
    Ms. King. The passport will remain held until they are able 
to repay the loan.
    Mr. Zeldin. In January 2020, State announced the launch of 
the Center for Analytics to improve data management and 
analytic efforts to support diplomatic missions abroad. The 
head of the Center, the first ever chief data officer, Janice 
deGarmo, said she had developed a repatriation briefing book to 
support the Repatriation Task Force. Would you be able to 
discuss the way this technology aided your efforts to track and 
analyze data repatriation requests and flight information?
    Mr. Brownlee. Thank you, Mr. Zeldin, for your question.
    Yes. I found it very useful. As the head of the 
Repatriations Task Force, that became required reading for me, 
the repatriations briefing book. Initially, it was coming out 
three times a day. As the efforts continued, the frequency 
decreased, but it was extraordinarily useful in seeing where 
trends were developing, what region of the world, for example, 
the Western Hemisphere remained a key focus for us. But as time 
went on, we saw, for example, there were more people trying to 
get out of Europe. We were intrigued to find there were 
relatively few people trying to come out of East Asia, Pacific 
region. It was very, very helpful to us in deciding where to 
devote resources as we move forward.
    Mr. Zeldin. Well, I thank you both. I think that the last 
answer kind of--might have answered my last question, but I 
will ask anyway in case you have any other insight on it. What 
work has the State Department's COVID-19 data analytics team 
done to evaluate changing conditions around the world to help 
ensure State's preparedness in responding to new, localized 
outbreaks of COVID-19?
    Mr. Brownlee. Thank you, sir, for the question.
    We are continuing to track conditions around the world, 
mainly through our ACS sections coming back to the Office of 
Overseas Citizens Services, to ascertain where people--U.S. 
citizens are expressing some degree of interest in returning to 
the United States.
    It is important to recognize that ``some degree of 
interest'' phrase in there. We have relatively few people these 
days who are saying, I need to go now. We have people who are 
saying, Well, if conditions change, if conditions worsen, what 
have you, I would like to go. So we are closely tracking that 
number, and the Center for Data Analytics is helping us do 
that, and that allows us to determine whether we might need to 
lay on additional flights to this place or that place.
    Mr. Zeldin. Thank you, and I just want to say thank you to 
both of you, Mr. Brownlee, Ms. King, to your teams. There were 
a lot of challenges with regards to the pandemic, but your 
accessibility and the efforts around the world certainly were 
noticed, I believe, on both sides of the aisle here in 
Congress, and by many of our constituents.
    I yield back.
    Mr. Castro. Absolutely. Thank you, Ranking Member.
    We will go now to Mr. Malinowski, New Jersey.
    Mr. Malinowski. Thank you, Mr. Chairman.
    Thank you to you both for being here with us. And, just to 
reiterate Mr. Zeldin's point, that the Department has been very 
responsive, very present when we have needed help with a 
particular constituent.
    That said, we need help, and there are some concerns I have 
about where we are right now in terms of providing services to 
people who need them. Let me just give you a couple of 
examples.
    I have a constituent, an American citizen, who--whose wife 
made a very difficult journey to Addis in Ethiopia in March for 
a visa appointment. It was understandably canceled in March, 
but it is a little bit harder for me to explain to that family 
why, now, in July, we still cannot tell them when this American 
citizen's wife might get an expedited appointment. She has 
DHS--her paperwork, everything in order.
    Another case, I have an American citizen child in my 
district whose Indian father was here on an H-1B visa, happened 
to go back to India in March because his father--his father had 
passed away, went back for the funeral, and his appointment for 
his H-1B renewal was canceled again, understandably, in March, 
but a little bit less understandable, a little bit harder to 
explain to that child why, in July, we still cannot tell him 
when his father might be able to get that appointment.
    So I guess my question is, why is it that, at this point, 
especially with the resources we have given you, we cannot 
conduct expedited interviews in these relatively few cases 
where there is an American family that is broken up? Here we 
are meeting by video conferencing here. You certainly have that 
capacity technologically to conduct interviews. You have legal 
authority to waive the personal appearance requirement in cases 
where the national interest argues for it, or if there is an 
unusual or exigent circumstance. When can we expect progress in 
this area, to either of you?
    Mr. Brownlee. Thank you, Mr. Malinowski, for your 
questions.
    I agree, the separation of family is heartrending. I am 
pleased to say that--I think it was last Wednesday, July 15th--
we sent instructions to the field on how to resume routine visa 
operations. This will be largely dependent upon the condition 
of the Diplomacy Strong--you understand that when I say--that 
the phase of Diplomacy Strong in which a particular post is. 
For those posts that are in the later phases, 2 and 3, they 
will be subject to essentially chief of mission, emergency 
action committee can decide if that is where they are. The post 
may undertake routine visa services consistent with good health 
practices, safety, et cetera.
    The posts that are in phases 0 and 1 may come into the 
Department to request permission to conduct certain sorts of 
visa applications--visa adjudications. So, for example, we are 
seeing requests coming in from some posts to begin doing 
student visa applications. So this is getting underway now.
    One of the difficulties we are finding is this is not a 
static situation. I was briefing a DCM headed to a European 
post just yesterday. As our conversation began, we were 
discussing how his soon-to-be post was at phase 2. One of his 
staffers from the EUR Bureau broke in partway through the 
conversation and said, I am sorry. The post just asked to go 
back to phase 1.
    Mr. Malinowski. But what about waiving the in-person 
requirement? You have done that apparently, I think, in some--
--
    Mr. Brownlee. Yes, sir. We have done this with regard to 
certain workers--for example, the agricultural workers coming--
--
    Mr. Malinowski. Right.
    Mr. Brownlee [continuing]. Out of Mexico, the H-2As.
    Mr. Malinowski. So why not students and scholars? Why not 
other categories?
    Mr. Brownlee. I would be happy to take the question under 
advisement, sir, with regard to--specifically with regard to 
those constituents. We are looking at everything we can do to 
get visa operations moving as quickly as possible.
    Mr. Malinowski. I mean, let me just close with a final 
comment that I find almost painful to make, but we all, first 
and foremost, want to protect the safety of U.S. Government 
employees. If I were a foreign service family with kids, 
wanting to enroll them in school right now, I can think of a 
large number of countries where I would feel safer than United 
States of America. If we were going to apply that phasing 
system to ourselves, we would not actually rank very highly, 
and I wonder whether we can do more to take that into account, 
as hard as it is to acknowledge how poorly we are doing in 
response to this crisis domestically in making these sorts of 
determinations.
    And, with that, I yield back. Thank you very much.
    Mr. Castro. Thank you, Mr. Malinowski.
    All right. I am going to ask a few questions, because, as 
you can imagine, the bells rang for votes, and folks are 
scrambling to go vote. And then we have one or two people who 
are interested in asking some questions. Hopefully that will 
give them a chance to come back. If not, we will probably 
recess for about 10 or 15 minutes and give them a chance to 
come back at that point.
    So I want to ask you, because we have been and still are 
affected by this pandemic, what safety protocols you are now 
taking in terms of, when you deliver the services--when 
Americans take advantage of the services that you offer, what 
protocols have been put in place, that offices are putting up 
to ensure the safety of the officers, for example?
    Mr. Brownlee. Thank you, Mr. Chairman, for the question.
    We are using protocols very similar to those you are using 
here, sir. We are keeping people at a safe--we remove one from 
another. We are only letting so many people into, for example, 
a visa waiting room.
    We have not yet begun expedited passport service, where we 
have, you know, people being exposed at the physical counter, 
yet.
    We are doing everything we can to begin moving our 
processes as quickly as possible, consistent with good conduct 
and safety.
    Mr. Castro. And is there a mechanism for officers to 
communicate their concerns and to work through scheduling 
options that give them more confidence in performing their 
work?
    Mr. Brownlee. Yes, sir, there is. I participate in, I think 
they are, thrice-weekly meetings with the Deputy Under 
Secretary for Management, where we discuss what it will take to 
reopen various aspects of the State Department domestically.
    And so, going back to Mr. Malinowski's observation, we have 
the domestic Diplomacy Strong undertaking, and we are looking 
at individual regions around the country--the national capital 
region. We have passport operations all over the country. As 
the conditions change in those areas, we decide whether we may 
more or less reopen there.
    Mr. Castro. Okay.
    And given the backlog of visa applications that built up 
while embassies and consulates were closed, how will the State 
Department prioritize visa applications once offices are 
reopened?
    Mr. Brownlee. Thank you, sir.
    What we are doing--as I said, we sent instructions to the 
field just 6 days ago now telling them, as I said earlier to 
Mr. Malinowski, how they may go about reopening, depending on 
which phase of Diplomacy Strong they are now.
    For those posts, for example in New Zealand, that is fairly 
wide open, they may move----
    Mr. Castro. Let me interrupt for just a second, because we 
lost our quorum because people have gone to vote. So we are 
going to recess here for just a bit.
    [Recess.]
    [11:05 a.m.]
    Mr. Castro. The committee will come back to order.
    And I know that we were in the middle of the answer to one 
of my questions, but if you had anything further to add as an 
answer to that question.
    And when you are done, I will turn it over to--let me see--
David--actually, Ted and then David. I see David.
    So any final words on that answer? Or were you----
    Mr. Brownlee. I think I was substantially done. Thank you, 
sir.
    Mr. Castro. Okay.
    Mr. Cicilline.
    Mr. Cicilline. Thank you, Chairman Castro.
    And thank you to our witnesses for being here.
    During the peak, the first, kind of, surge of the 
coronavirus, back in April, there were many Governors that were 
pleading for more healthcare workers. And, at the same time, 
The New York Times was reporting that foreign health workers 
had been lining up to take jobs in American hospitals but had 
been prevented from doing so.
    And they described the roadblocks that included their 
inability to get visas, not being allowed to travel to the 
United States even if they had a visa. And, in other cases, 
foreign health workers inside the country were not allowed to 
extend their visas.
    So my first question is, what is Consular Affairs doing to 
ensure that foreign health workers who are able and willing to 
help during this health emergency are able to get visas and 
travel to the United States or remain here in the United 
States?
    Mr. Brownlee. Thank you very much for your question, sir. I 
can address what we are doing with regard to those foreign 
health workers who are overseas, seeking visas to travel to the 
United States. With regard to those who are in the United 
States already, seeking to extend their stay, I would have to 
refer you to the Department of Homeland Security, specifically 
U.S. Citizenship and Immigration Services, which is responsible 
for the extension of a period of stay in the United States.
    With regard to those who are overseas, right from the 
beginning, we have prioritized giving visa appointments, giving 
visa interviews to certain classes of people, including health 
workers coming to help us address the COVID-19 panic.
    There may have been some confusion in the initial weeks, 
but, since then, the Assistant Secretary for Consular Affairs 
has made it clear, and has, in fact, acted upon that clarity, 
that we need to make it possible for these health workers to 
come here, assuming they have the necessary work 
authorizations.
    Thank you, sir.
    Mr. Cicilline. Thank you.
    And on July 6 ICE announced that students taking only 
online classes would not be eligible for student visas, and 
then on July 14 they rescinded this policy.
    My question is, were any applicants denied student visas 
between July 6 and the 14th on the basis of ICE's announcement? 
And if so, will those applicants be given and notified of an 
opportunity to reapply?
    Mr. Brownlee. Thank you very much for your question, sir. I 
do not know the answer specifically. I will have to get back to 
you on that one.
    Mr. Cicilline. Okay. I would appreciate that.
    Ms. King, as you know, countries around the world, 
including some of our most important allies, are beginning to 
allow people to travel to their countries again, and, with very 
few exceptions, the United States has remained on the list of 
countries who are not welcome.
    A more cynical person might say that, while President Trump 
has thankfully failed to build his wall along our border with 
Mexico, his horrendous response to the coronavirus has erected 
a different kind of wall, one that prevents Americans from 
leaving our own country.
    And what I would like to know is what role the State 
Department is playing with our allies and other governments 
around the world to address the concerns so that Americans can 
travel again. And, particularly, have these governments 
provided specific metrics to the United States that will have 
to be met in order for Americans to be allowed to travel to 
their countries?
    Ms. King. Thank you for the question.
    I know that many countries, especially in Europe, are 
looking epidemiologically at whether or not it is prudent for 
them to allow U.S. citizens in at this time. And I know that we 
are having very close conversations with governments throughout 
the world to see whether we can reach agreement on the comfort 
levels that they might have with allowing U.S. citizens in.
    I will tell you what my office is doing. We are working on 
our travel advisory to bring it down from the global Level 4, 
which right now advises U.S. citizens against traveling 
anywhere in the world. We are working very closely with CDC, 
which is also looking at risk levels overseas for U.S. 
citizens, so that we can provide accurate advice. And I am 
hoping that, in the near future, we will be at a point where 
there will be some countries where we can again advise U.S. 
citizens that, although it may not be completely safe to 
travel, we will no longer be saying do not travel.
    Mr. Cicilline. Yes, no, I appreciate that. My question 
really relates to countries that are prohibiting U.S. citizens 
from traveling to those countries, not policy of the United 
States, policies of our allies. And to the extent that there 
are metrics that they are furnishing the United States that 
must be met before U.S. travel will be permitted, it would be 
useful to know what those metrics are. I think it would help 
guide our response here in the United States.
    And so, if we have specific metrics from allies or other 
countries saying, you must meet these metrics before we will 
allow Americans to travel here, it would be very useful for 
Congress to know that and to see those metrics. And I would ask 
you to make them available to us, if they exist.
    And, with that, I yield back.
    Ms. King. Yes. Our regional bureaus are working very 
closely with governments, again, specifically the governments 
in European countries, to see what their basis is for deciding 
whether or not U.S. citizens may enter.
    And I know in Europe, in the Schengen countries 
particularly, they are looking at epidemiological markers very 
similar to what CDC is looking at in determining whether 
foreigners should be allowed in to the United States. So, if 
there is a desire for more details on what those markers are, I 
am happy to talk to our regional bureau colleagues about the 
details.
    Mr. Cicilline. Thank you very much.
    Mr. Castro. Well, thank you.
    And I do think that is an important question Mr. Cicilline 
asked, which is, you know, we know now that there is a growing 
list of countries that have prohibited Americans from traveling 
there. And people have family members in these countries that 
they would like to visit at some point, obviously. So it will 
be important for us to understand what it is going to take to 
allow Americans to get back to those places. So we will 
followup with you all on that.
    With that, I will go to Mr. Lieu of California.
    Mr. Lieu. Thank you, Mr. Chair.
    And thank you to the witnesses for your dedicated public 
service. We all really appreciate that.
    Two areas of inquiry. The first, I want to start out by 
thanking Secretary Brownlee for your great work with 
repatriation. I know that we had about 20-some constituents 
that needed to be repatriated. We worked with your task force, 
and they were all repatriated. And so thank you for that.
    My question related to that issue is--and I am sorry if 
this has been asked before. I was told that some airlines, and 
perhaps U.S. airlines as well, were not particularly helpful in 
this effort. So I wanted to know if that was true. And if it 
was, in what ways can we make sure that they are more helpful 
next time?
    Mr. Brownlee. Thank you very much, Mr. Lieu. And thank you 
for your kind words about the efforts of the task force. It was 
a remarkable effort, bringing together people from across the 
State Department, across the U.S. interagency, and, frankly, 
across the globe. So it is remarkable to have been involved in 
such an undertaking.
    With regard to the airlines, we found that, as the 
confusion of the border closings took place, our Economic 
Bureau undertook conversations with U.S. legacy carriers and 
others to see whether they would be available to conduct 
flights into certain areas. In some cases, they were unable or 
unwilling to go into areas; in other cases, they were.
    So, for example, the legacy carrier--or the follow-on to 
the legacy carrier Eastern Airlines, a small U.S. company, 
proved to be very, very helpful in going into areas in the 
Caribbean, Central America, and northern South America.
    When we sought to bring people out of, for example, India, 
the question became more complex. And I do not think I would 
characterize the U.S. airlines as being uncooperative. It 
simply was not commercially viable for them to fly from the 
United States to India to pick up a load and then bring it back 
again. And this got them into--the problems arose from such 
things as crew rest regulations, the need to fly two crews 
from, say, San Francisco to New Delhi.
    So, in the end, there, we ended up going with Air India, 
which did not have those same crew rest issues. They could 
initiate their travel in India, pick up a planeload of people, 
bring them to the United States.
    So there was much confusion, but I do not think that I 
would characterize the airlines as uncooperative.
    Thank you, sir.
    Mr. Lieu. That is helpful to know. I appreciate that.
    So the second subject I want to talk about is, what do we 
call this virus?
    So let me start by saying that what China did at the 
beginning in suppressing information about this virus is not 
defensible, and we should rightly criticize China for doing 
that.
    At the same time, this virus already has an official name, 
``COVID-19.'' It has an unofficial name, ``coronavirus.'' And 
the CDC has said that we should not attach ethnic identifiers 
to this virus because it could lead to discrimination. And we 
already see, across America, that there have been approximately 
1,900 hate crime incidents against Asian Americans, including 
an Asian American family in Texas that was stabbed because the 
perpetrator thought they were spreading this virus.
    And I understand you cannot control what the President of 
the United States says, but when the President or other 
administration officials use terms like ``Chinese virus'' or 
``kung flu,'' it does fuel hatred against Asian Americans, and 
it leads to hate crimes against Asian Americans.
    So I just want all of you to understand that words do 
matter. And when you stick ethnic identifiers in front of a 
virus that affects everyone, it could lead to very harmful 
effects against Americans who happen to be of Asian descent.
    And my question to you is, is there any official State 
Department policy on what you call this virus?
    And before you answer, I also want to say that, you know, 
we do not call the swine flu the ``North American virus,'' even 
though it started in North America. The Spanish flu did not 
start in Spain; it likely started in Kansas. So there is no 
reason to call this the ``Chinese virus.'' If you want to say 
the virus came from China, I think that is fine. That is very 
different than how some other people use terms that could 
inflame people against Asian Americans.
    If you could answer my question about whether there is a 
policy on what you call this virus, that would be great.
    Mr. Brownlee. Within the Bureau of Consular Affairs, sir, 
we refer to the carrier of the virus as the ``novel 
coronavirus.'' The disease that novel coronavirus causes is 
called ``COVID-19.'' There is a pandemic generated by the 
widespread infection by COVID-19.
    Mr. Lieu. Thank you. I appreciate that. And I urge all 
Federal agencies to do what you all do.
    And I hope the President of the United States understands 
he is President for not just some Americans but all Americans 
and that he understands his words can cause hatred toward a 
certain subset. And I wish he would just call this virus by its 
official name.
    With that, I yield back.
    Mr. Castro. Thank you, Mr. Lieu.
    Mr. Lieu makes an important point as well, that the 
President's language has been incendiary in how he has 
described this virus. And attacks against Asian Americans, as 
you all probably have seen, have skyrocketed during this 
pandemic, in no short measure because of how the President has 
described this virus, and others as well.
    With that, I am going to go over to Debbie Dingell, but, 
first, I need to read just a few lines.
    I ask unanimous consent for Representative Debbie Dingell 
of Michigan to participate in this hearing and ask questions 
after all subcommittee and committee members have done so.
    Hearing no objection, I will go to Debbie Dingell of 
Michigan.
    Mrs. Dingell. Thank you, Chairman Castro, and to Ranking 
Member Zeldin, for convening this important hearing to discuss 
the COVID pandemic and its impact on the State Department's 
consular programs.
    As today's witnesses have outlined, the COVID-19 pandemic 
has resulted in the evacuation of 100,000 Americans on over 
1,000 flights from 136 countries and territories. And, quite 
frankly, a number of them have been from my district.
    However, these evacuations can come at a substantial cost 
for Americans abroad, as they are required to pay the 
equivalent of a ticket on a commercial flight from the area in 
which they are evacuated. Additionally, the State Department 
will put a hold on the individual's passport until the amount 
is repaid.
    This resulting cost is often very surprising to 
individuals, the amount of it, and burdensome. And several of 
my constituents discovered when being evacuated from the 
Caribbean in 2017--so this is before COVID--they had to pay 
hundreds and thousands of dollars in repatriation loans each.
    That is why Congressman Jim McGovern and I have introduced 
the Leave No Americans Behind Act, which would end the State 
Department's practice of charging these fees.
    Mr. Brownlee, I would like to ask you some questions.
    Can you provide details on the total cost of the 
repatriation efforts? Specifically, how much did the entire 
campaign cost the State Department? What were the costs of the 
flights?
    Mr. Brownlee. Thank you, Ms. Dingell, for your questions.
    I have here in front of me information that indicates that, 
in repatriating the over 110,000 people, the Department spent 
over $195 million--specifically, over $196 million. I have a 
breakdown beyond that if you are interested, but it is a total 
of $196 million.
    How we arrived at the individual costs of a particular 
flight, that is governed by law and regulation. We are required 
by law to take a promissory note from anybody whom we put onto 
one of these K Fund charter flights. The amount of that 
promissory note is fixed by the Bureau of Administration within 
the State Department, and essentially what it comes down to is 
what one would have paid for a ticket if one had showed up at 
the airport in, say, Santo Domingo looking for a flight to the 
United States the day before the crisis hit. So the immediate 
pre-crisis price.
    As the effort to repatriate people continued, we expanded 
our lift capacity by bringing in commercial carriers as well. 
In some cases, they were able to do this for less than what we 
would have charged. In other cases, they found they could only 
make money by charging more than we would have charged for a 
corresponding flight.
    In any case, we left nobody behind for reasons of money. 
Either people could come back using the promissory note on one 
of the K Fund charter flights or the American Citizens Services 
section in the country in question could issue the person a 
repatriation loan.
    And we issued a very significant number of repatriation 
loans, or have issued a very significant number of repatriation 
loans during this crisis. As of--I am sorry, I do not have the 
exact date, but we hit our congressionally mandated cap on the 
repatriation loan program of about $5.6 million about a month 
or two ago. And, since then, we have issued, I think, some $2 
million, approximately, in repatriation loans coming out of the 
K Fund.
    I hope this answers your questions, ma'am.
    Mrs. Dingell. I have a lot more questions. I appreciate the 
information. And I am going to have to be fast because I am 
down to 45 seconds.
    But you know that a number of individuals are unemployed. 
They are now having very real financial situations. How do we 
help them in repaying these notes?
    And many other countries who assisted in the repatriation 
of their citizens did not charge their citizens or their family 
members to return home. So, in the State Department's 
assessment of actions you have taken during this time, are you 
looking at charging citizens in an emergency, something under 
consideration to change how you help people in these dire 
times?
    Mr. Castro. And you all can give a full answer on that. We 
are waiting for maybe one more member that has questions, so go 
ahead.
    And, Debbie, if you have another question, go ahead too.
    Mrs. Dingell. Well, let's get the answer to that one.
    Ms. King. The requirement to obtain reimbursement from U.S. 
citizens pursuant to issuing a repatriation loan is a matter of 
statute. So the U.S. Department of State does not have a choice 
in that matter.
    Again, our goal in Consular Affairs is to make sure people 
get out of harm's way absolutely as quickly as possible, and 
that, in some cases, does require the repatriation loan 
program. But we are not in a position to forgive those loans, 
given the statute.
    Mrs. Dingell. So that is why we need the Leave No Americans 
Behind law that Jim and I have introduced.
    So individuals who boarded the State Department charter 
flights had to sign promissory notes promising to pay the State 
Department back, and some of them are now finding they do not 
have their passports. Not that anybody really should be 
traveling right now, but if they need it for other reasons and 
they are hitting credit issues, et cetera.
    How much in dollar value right now do you think is out 
there in promissory notes?
    Mr. Brownlee. Ma'am, thank you for the question.
    We understand that some $7.5 million to $8 million in 
repatriation loans are outstanding. In terms of promissory 
notes, we are going to have to get you that information, ma'am.
    Mrs. Dingell. Thank you.
    And I do thank you all. I have had a lot of desperate 
people, and you have multiple times more that in the last few 
months. These are tough jobs, and we want to make sure our 
Americans are safe and brought home safely. And we probably do 
not say thank you enough to people who are trying to help our 
fellow Americans.
    I yield back, Mr. Chair.
    Mr. Castro. All right. Thank you, Representative Dingell.
    And we have one more member who is going to be coming. Of 
course, again, remember, people are voting and coming back and 
forth, and so it will take about 5 minutes.
    Ted, do you have any other questions you wanted to ask?
    I will just check with the members that are here. If not, 
we can recess for 5 minutes, but just want to make sure there 
are not any other questions that folks wanted to ask.
    Mr. Lieu. I am good, Mr. Chairman.
    Mr. Castro. Okay.
    All right. We will recess for about 5 minutes. I promise in 
about 20 minutes you will be out of here, all right?
    The committee is in recess.
    [Recess.]
    Mr. Castro. All right. The committee will come to order, 
and now recognize Ms. Omar.
    Ms. Omar. Thank you, Chairman.
    Thank you so much for being here with us, Mr. Brownlee.
    My office heard from several people who had approved visas 
and were unable to travel due to the COVID pandemic. We also 
heard from people who were in the middle of an approval 
process, and those--whose time limits expired during the 
pandemic.
    It does not seem fair to me that people might lose their 
visas or have to pay additional fees through no fault of their 
own. Will the State Department automatically extend people's 
deadlines or visas to accommodate them when those things 
expired through no fault of their own----
    Mr. Brownlee. Ms. Omar----
    Ms. Omar [continuing]. And can you guarantee that those--
they will not be able to pay additional fees for this, for 
their cases?
    Mr. Brownlee. Ms. Omar, thanks very much for that question.
    This is an important issue. We understand that--we were 
required back in March to close down visa operations. I am very 
pleased to say that beginning 6 days ago, we sent instructions 
to the field on how they could begin--the individual posts 
around the world could begin resuming visa--routine visa 
operations.
    We recognize that a great many people had paid for visa 
appointments, and those visa appointments were canceled. We 
recognize that a great many people had done their, for example, 
panel physician examinations. Those--the results of those 
examinations will have expired.
    We are formulating guidance to the field right now on how 
to deal with these various issues. We are very cognizant of the 
fairness issue, that people paid in good faith for certain 
services, and did not receive them.
    We also recognize that there were time limitations on 
various other documents that were not always within the control 
of the State Department. So, for example, some would be 
petitions that had been approved by U.S. Citizenship & 
Immigration Services. We are looking at this closely right now, 
and I hope will be able to give you a more fulsome answer in 
the near future.
    Ms. Omar. Wonderful. We will followup. Thank you so much.
    Mr. Brownlee. Thank you.
    Ms. Omar. I know that how anxiety-inducing it is for people 
who have waited for a long time to have gotten the opportunity 
and lose it, so thank you.
    Ms. King, I just wanted to talk a little bit about 
repatriation. First of all, we all recognize how incredibly 
difficult and unprecedented this repatriation effort was, and I 
am amazed by the hard work and passion of the embassy staff and 
career officials. I know it was not easy, and I know there will 
be a lot of lessons learned to prepare us for a truly global 
event like this one in the future.
    How would you characterize the differences between the 
different countries in terms of our communication with those 
countries during this effort, and are there countries where we 
did not have adequate notice of their own plans to close 
airports and restrict flights?
    Ms. King. Thank you very much. Thank you for your kind 
words for my team, first of all, very much appreciated.
    In terms of the repatriations, I think one of the main 
problems that we did encounter was lack of advanced notice from 
a number of countries. I certainly feel that if we were to do 
something differently in the future, we would have all of our 
embassies reach out immediately to the host governments to find 
out what their intentions were in terms of closing borders.
    We were very much focused on where the epidemic was 
threatening U.S. citizen lives overseas, which was obviously 
China in the beginning, and then moving into Europe. Obviously, 
where we saw a lot of issues with Americans unable to come home 
was in Latin America, where a number of countries, for example, 
Peru, did shut down the border with very little notice, and 
then we were in a position of having to request exceptions to 
bring in our rescue flights and our K fund flights.
    We saw a similar phenomenon in Morocco there. We were very 
successfully able to get them to delay closure of their airport 
while we were able to get in rescue flights. So I do not think 
that there was any one specific country. I think, throughout 
the world, we saw this phenomenon.
    Ms. Omar. I think one of the--one of my concerns involved 
cases in Venezuela. And, in this case, it looked like we were 
letting politics get in the way of doing our duty to protect 
U.S. citizens, and I know oftentimes, you know, we have to 
prioritize the safety of our citizens and our ability to 
reunite them with their families here at home. So I hope, in 
the future, as we learn from this, that we work to try to 
create that priority and substitute our ideology and politics 
for the reality of what it means to have our citizens back 
home.
    Thank you, and I yield back.
    Mr. Castro. Thank you, Ms. Omar, and that concludes the 
member questioning.
    Again, I want to thank our witnesses from the State 
Department for your testimony. And, Ms. King, I think you made 
an important point at the end here in your last answer where 
you talked about some things that we might have done 
differently or approached differently next time.
    I think all of us do not hope for anything like this 
pandemic, or anything close to it in the near future or really 
ever. However, it is important that, at some point, we take 
stock of lessons learned, and what we could do better, what we 
should do differently next time, and I hope that the State 
Department will work internally to put that kind of document 
together, but then, at the right time, also share it with 
Congress.
    With that, I want to say thank you, and this meeting is 
adjourned.
    [Whereupon, at 11:48a.m., the subcommittee was adjourned.]

                                APPENDIX
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

                  INFORMATION SUBMITTED FOR THE RECORD
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	


                                 [all]
</pre></body></html>
